I N T H E S O T R E M E C O U R T O F T H E l ^ T E D S TAT E S
No. 20-142

MICHAEL SKIDMORE, TRUSTEE FOR THE RANDY CRAIG WOLFE TRUST
P e t i t i o n e r,
V

L E D Z E P P E L I N , E TA L .

Respondents.

C E R ^ K C AT E O F C O № L I A N C E

As required by Supreme Court Rule 33.1(h), Icertify that the Petition for
Wtit of Certiorari contains 4,450 words, excluding the parts of the Petition that are

exempted by Supreme Court Rule 33.1(d).
Ideclare under penalty of perjury that the foregoing is true and correct.
Executed on September 10, 2020.

w. Michael Hensley
AlvaradoSmith

1MacArthur Place, Suite 200
Santa Ana, CA 92707
(714) 852-6835
mhenslev@alvaradosmlth.com

